No. __________

IN THE
SUPREME COURT OF THE UNITED STATES
ANDREA LEA, in her official capacity
as Auditor of the State of Arkansas,
Applicant,
v.
UNITED STATES and JAKE LATURNER,
Treasurer of the State of Kansas,
Respondents.
On Application for an Extension of Time Within Which
To File a Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
APPLICATION TO THE HON. JOHN G. ROBERTS, JR. FOR
AN EXTENSION OF TIME WITHIN WHICH TO FILE A PETITION
FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT

Joseph H. Meltzer
Melissa L. Troutner
Kessler Topaz Meltzer & Check LLP
280 King of Prussia Road
Radnor, PA 19087
(610) 667-7706
jmeltzer@ktmc.com

David H. Thompson
Counsel of Record
Peter A. Patterson
John D. Ohlendorf
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Counsel for Applicant
February 28, 2020

To the Honorable John G. Roberts, Jr., Chief Justice of the United States and Circuit
Justice for the Federal Circuit:
Pursuant to Rules 13.5 and 22, the above-captioned Applicant respectfully moves for an
extension of time granting an additional 59 days in which to file a petition for writ of certiorari to
the United States Court of Appeals for the Federal Circuit in LaTurner v. United States, Nos. 18509 & 18-1510. The jurisdiction of this Court is based on 28 U.S.C. § 1254(1). The opinion for
which Applicant intends to seek the writ (a copy of which is included as Exhibit A) was filed on
August 13, 2019, and Applicant’s timely motion for rehearing en banc was denied by an Order
entered December 11, 2019 (a copy of which is included as Exhibit B), so under the ordinary
timing requirements in Rule 13.1, Applicant’s petition is due on March 10, 2020. With the
additional 59 days Applicant is requesting, the petition would be due on May 8, 2020. In support
of her request, Applicant states as follows:
1.

Counsel for the Applicant is heavily engaged during the months of March and

April with substantial briefing obligations in several pending matters, including NAACP State
Conference v. Raymond, No. 20-1092, pending before the Fourth Circuit. Further, Counsel is
actively involved in ongoing mediation briefing and proceedings in In Re: U.S. Office of
Personnel Management Data Security Breach Litigation, No. 15-2394, pending before the U.S.
District Court for the District of Columbia. And Counsel also has substantial discovery deadlines
and obligations in the coming months in Fairholme Funds, Inc. v. Federal Housing Finance
Agency, No. 13-1053 (D.D.C.) and 111 West 57th Investment LLC v. 111W57 Mezz Investor
LLC, No. 655031/2017 (N.Y. Sup. Ct.).
2.

The Federal Circuit’s decision presents substantial issues of law, including (1)

whether the States’ authority to escheat abandoned property is preempted by federal law, even

1

though the relevant statutes and regulations say nothing about escheatment and the Third Circuit
has interpreted the same regulations as in fact allowing escheatment, (2) whether States holding
title to abandoned savings bonds pursuant to escheatment are barred by Treasury’s regulations
from ever redeeming those bonds, and (3) if so, whether the massive appropriation of property
effected by Treasury’s regulations violates the Takings Clause.
3.

The importance of these issues is underscored by the fact that the decision below,

in answering some or all of these questions, expressly departed from the directly contrary
conclusion of the Third Circuit in Treasurer of New Jersey v. United States Department of
Treasury, 684 F.3d 382 (3d Cir. 2012). The Federal Circuit’s answer below also contradicts
repeated statements by Treasury itself, including representations made by the United States in a
brief filed before this Court. See Brief for Resp’ts in Opp’n at 4, Director of the Dep’t of
Revenue of Mont. v. Department of Treasury, 133 S. Ct. 2735 (2013) (No. 12-926), 2013 WL
1803570. Applicant requests an additional 59 days to better enable Counsel to prepare a petition
that adequately presents these important legal issues to this Court for consideration.
4.

The Federal Circuit consolidated this case for argument with another case,

LaTurner v. United States, and it decided the two cases together with a single published opinion.
Counsel for the plaintiff in LaTurner (a Respondent here, pursuant to Rule 12.6) recently filed an
application seeking an extension of time within which to file a petition for certiorari, requesting
the same revised deadline sought by Applicant here: May 8, 2020. Given the identity of the
issues in this case and LaTurner, Applicant submits that keeping the two cases on the same
track—such that the cert. petitions in the two cases can be briefed, considered, and decided on
the same timeline—provides an additional reason for extending the deadline in this case.

2

5.

Because the trial court, at the direction of the Federal Circuit, has entered

judgment in favor of the government, Respondent United States will suffer no prejudice from the
59-day extension Applicant is requesting.
For the foregoing reasons, Applicant hereby respectfully requests an extension of time up
to and including May 8, 2020, for the filing of a petition for writ of certiorari in this case.
Dated: February 28, 2020

Respectfully submitted,

_____________________
David H. Thompson
Counsel of Record
Peter A. Patterson
John D. Ohlendorf
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
dthompson@cooperkirk.com

Joseph H. Meltzer
Melissa L. Troutner
Kessler Topaz Meltzer & Check LLP
280 King of Prussia Road
Radnor, PA 19087
(610) 667-7706
jmeltzer@ktmc.com

Counsel for Applicant

3

